  UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

   OFFICE OF INSPECTOR GENERAL

              FOR THE

MILLENNIUM CHALLENGE CORPORATION




        SEMIANNUAL REPORT

         TO THE CONGRESS





          October 1, 2006 - March 31, 2007

MISSION




 Mission

 The mission of the Office of Inspector General (OIG) is to contribute to and support
 integrity, efficiency, and effectiveness in all activities of the organizations for which it has
 oversight responsibilities.

 Values

 In accomplishing our mission, OIG is committed to the following:

   • Integrity

   • Excellence

   • Teamwork

 Strategic Goals

   • 	Promote sound accounting and reporting on financial activities and information 

      security.


   • 	Promote economy, efficiency, and effectiveness, and assess program results.

   • 	Preserve and protect program and employee integrity.
CONTENTS

  Message from the Inspector General . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii


  Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


  Summary of Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


           Strategic Goal 1: Promote sound accounting and reporting on

           financial activities and information security . . . . . . . . . . . . . . . . . . . . . . . . 3


           Strategic Goal 2: Promote economy, efficiency, and effectiveness,

           and assess program results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


           Strategic Goal 3: Preserve and protect program and employee

           integrity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


  Appendices: Reporting Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11





                                                                                 SEMIANNUAL REPORT TO THE CONGRESS                    i
MESSAGE FROM THE
INSPECTOR GENERAL
T       his Semiannual Report to the
        Congress (SARC) presents
        information about the
work of the United States Agency
for International Development
                                       • 	 Promote sound accounting and
                                           reporting on ﬁnancial activities
                                           and information security.
                                       •	 Promote economy, efﬁciency, and
(USAID), Ofﬁce of Inspector               effectiveness, and assess program
General (OIG) in providing                results.
oversight for the Millennium           • 	 Preserve and protect program and
Challenge Corporation (MCC)                employee integrity.
during the six-month period ending
on March 31, 2007. It is issued in     This report describes signiﬁcant
accordance with the requirements       OIG activity and achievements in
of the Inspector General Act of        support of these goals.
1978, as amended, and speciﬁcally
addresses our responsibilities for
MCC.
The work reported was planned and
executed in support of OIG’s three
strategic goals for MCC:




                                                                     Donald A. Gambatesa
                                                                     Inspector General




                                                                              SEMIANNUAL REPORT TO THE CONGRESS   iii
EXECUTIVE SUMMARY

O         IG’s collaborative
          working relationship
          with MCC continues to
achieve positive results. During
this reporting period, management
                                         ﬁrm. The audit ﬁrm identiﬁed six
                                         reportable conditions in MCC’s
                                         internal controls process for
                                         ﬁnancial reporting and operations
                                         which included ﬁve material
                                                                                   audit of MCC’s due-diligence
                                                                                   process leading to Compact awards.
                                                                                   Results of Compact countries will
                                                                                   be the subject of future audits
                                                                                   because Compacts are in the early
decision was reached on 13               weaknesses and three instances            stages of disbursing funds and
recommendations. Final action was        of noncompliance with laws,               initiating activities in the recipient
recorded on 20 recommendations.          regulations, contracts, and grant         countries.
OIG results achieved under each of       agreements.
the goals are described below.                                                     Strategic Goal 3:
                                         OIG made 12 recommendations,
                                         and ﬁnal action was taken on all but      Preserve and protect
Strategic Goal 1:                        two recommendations.                      program and employee
Promote sound accounting                                                           integrity.
                                         During this reporting period, OIG
and reporting on financial
                                         work continued in support of              Fraud awareness training was
activities and information
                                         the requirements for audits under         conducted in two countries. The
security.                                Compact agreements, which are the         brieﬁngs highlighted potential
OIG continues to address MCC’s           grant instruments used for recipient      contracting irregularities and
challenge in developing effective        countries. Audits of the funds            educated those who have responsi­
ﬁnancial management systems              managed by the Compact recipients         bility for administering MCC
and related internal controls and        were issued for the ﬁrst time, and        programs on potential vulnerabili­
worked with foreign accounting           the ﬁndings were signiﬁcant.              ties.
ﬁrms overseeing ﬁnancial audits          Work continued in the information
conducted on OIG’s behalf during         security area relative to ﬁndings of
this reporting period. Before qualiﬁ­    the Federal Information Security
cation, OIG assesses local ﬁrms for      Management Act (FISMA)
eligibility to perform audits, reviews   audit from the previous period.
documents to facilitate the in-          Final action was taken on seven
country audit process, and evaluates     recommendations.
audit products for quality. During
this period, OIG issued seven
reports addressing MCC’s ﬁnancial        Strategic Goal 2:

activities: the audit of the ﬁnancial    Promote economy,

statements for the period ending         efficiency, and effectiveness,

on September 30, 2006; a report on       and assess program results.

MCC’s withholdings/contributions
for the employee beneﬁt program; a       OIG surveyed MCC’s Trade
risk assessment of MCC’s Vanuatu         Capacity Building (TCB) program
ﬁnancial operations; and four Fund       activities in response to a request
Accountability Statement (FAS)           from members of the Committee
audits.                                  on Small Business, U.S. House
                                         of Representatives to determine
MCC’s ﬁnancial statements for ﬁscal      if MCC’s programs support the
year 2006 were audited under OIG         implementation of free-trade
oversight by a nonfederal accounting     agreements. OIG also issued an




                                                                                SEMIANNUAL REPORT TO THE CONGRESS           1
SUMMARY OF RESULTS

                                                                                                      risks such as misstating amounts in
                                                                                                      the ﬁnancial statements, unauthor­
       Strategic Goal 1:                                                                              ized transactions, omissions,
                                                                                                      potential fund-control violations,
       Promote sound accounting and reporting on                                                      and noncompliance.
       financial activities and information security.                                                 OIG reviewed the audit report and
                                                                                                      made 12 recommendations for
                                                                                                      addressing weaknesses in MCC’s
                                                                                                      ﬁnancial management operations.


O          IG is pursuing an
           aggressive ﬁnancial
           management audit
program to identify deﬁciencies
that can be addressed as MCC
                                                   SIGNIFICANT
                                                   OIG WORK
                                                   Consolidated Financial
                                                                                                      Two of the recommendations are
                                                                                                      pending ﬁnal action.

                                                                                                      MCC continues to address ﬁscal
                                                                                                      year 2005 ﬁnancial-statement audit
enters each new phase of Compact
                                                   Statements, Internal                               recommendations concerning cash
administration. Efforts are aimed                  Controls, and Compliance for                       management. MCC is preparing
at establishing sound ﬁnancial                     Fiscal Years 2006 and 2005                         a description of the methodol­
accounting methodologies for                                                                          ogy it will use to implement the
                                                   OIG issued an unqualiﬁed opinion                   recommendation for developing
the long term. One key area for
                                                   on MCC’s ﬁnancial-statement audit                  policies and procedures to ensure
ﬁnancial management is MCC’s
                                                   for ﬁscal year 2006. This annual                   that the payment schedules and
process and procedures for disburs­
                                                   audit has three components: review                 other agreements entered into with
ing funds to Compact recipients,
                                                   of the assets and liability accounts               grantees reﬂect the Department of
for which OIG made several
                                                   of MCC as presented in the                         Treasury requirements for advances
recommendations.
                                                   ﬁnancial statements; review of the                 and immediate cash needs.
OIG’s information security work                    internal control process; and review
during this period focused on                      of the organization’s compliance                   (Audit Report No. M-000-07-0001-F)
recommendations to MCC in                          with rules, regulations, and laws.
previous audits. MCC and OIG
have achieved signiﬁcant results
                                                   The audit was conducted by a                       Financial Audits of Compact
                                                   nonfederal audit ﬁrm, which found                  Funds – Fund Accountability
on follow-up of outstanding
                                                   that the ﬁnancial statements were                  Statement Audits
recommendations.
                                                   presented in conformity with
                                                   generally accepted accounting                      OIG responsibilities include
                                                   principles. The opinion included                   ﬁnancial audits of U.S. Government
                                                   six reportable conditions which                    funds provided under MCC’s
                                                   included ﬁve material weaknesses                   Compact agreements. Those
                                                   and three instances of noncompli­                  Compact grants contain a provision
                                                   ance with laws, regulations,                       for ﬁnancial audits of funds held
                                                                                                                                1
                                                   contracts, and grant agreements.                   by the Accountable Entity that
                                                   The material weaknesses identiﬁed                  manages the funds. Compacts
                                                   in MCC’s internal controls increased               currently require such audits at



1. The Accountable Entity is an entity established by the recipient government to manage the MCC-funded program. The recipient government delegates
   responsibilities to an Accountable Entity.




                                                                                                SEMIANNUAL REPORT TO THE CONGRESS                     3
        least once a year. However, MCC is     Risk Assessment of                      MCC to the Ofﬁce of Personnel
        requiring the recipient countries to   Millennium Challenge                    Management (OPM) for the period
        perform audits twice a year.           Account Vanuatu’s Financial             ending on June 10, 2006.
        As part of its quality assurance       Operations                              The review was conducted at the
        program, OIG continues to identify                                             request of MCC to ensure that
                                               During this period, OIG per­
        and approve audit ﬁrms overseas                                                certain personnel deductions were
                                               formed a risk assessment of the
        that are qualiﬁed to perform the                                               being managed correctly. The
                                               $65.7 million Compact program
        audits. Qualiﬁcation requires                                                  nonfederal auditor tested MCC
                                               during the Millennium Challenge
        consideration of compliance with                                               personnel documentation on the
                                               Account (MCA) Vanuatu’s
        elements of professional auditing                                              basis of the sampling outlined in
                                               implementation to detect
        standards. In all cases, OIG staff                                             the “Agreed Upon Procedures”;
                                               vulnerabilities in cash management
        travel to the country to conduct                                               interviewed human resources and
                                               and procurement.
        the assessments. In addition, OIG                                              payroll personnel and reviewed
        reviews the statements of work and     OIG held several meetings with          policies and procedures to identify
        resulting audit work performed on      various individuals involved in         material weaknesses and their
        the accounts. These audits review      developing the proposal and             causes; and reviewed ofﬁcial
        the entity’s FAS, internal controls,   providing assistance in the compact     personnel ﬁles, performed recalcula­
        and compliance with material           activities; with key staff to discuss   tions, and veriﬁed withholdings and
        provisions, and OIG issues the         policies and procedures; and with       contributions with the general ledger
        audit with recommendations to          ﬁscal and procurement agents to         and ofﬁcial OPM reports.
        MCC for overseeing the resolution      review progress in building an
        of identiﬁed weaknesses and                                                    There were no ﬁndings in the
                                               organizational structure and to
        questioned costs.                                                              report, which was issued without
                                               assess their role in understanding
                                                                                       recommendations.
                                               responsibilities for complying with
        During this period, OIG qualiﬁed
                                               MCC’s requirements.                     (Report No: M-000-07-002-F)
        audit ﬁrms in two additional
        countries, bringing the total number   OIG found that MCA Vanuatu had
        of Compact countries with qualiﬁed     moderate risk in cash management
        audit ﬁrms to 11. Emphasis                                                     OTHER WORK
                                               and procurement. No recommenda­
        continues on building relationships    tions were made.                        THIS PERIOD
        with other organizations having
                                               (Report No. M-000-07-003-F)             OIG continues to work with MCC
        experience or interest in interna­
                                                                                       after an audit is completed to ensure
        tional auditing of development
                                                                                       that proposed actions in response to
        projects.
                                               Review of MCC’s Benefits                recommendations will be effective
        OIG reviewed and issued the            Withholdings/Contributions              in resolving identiﬁed weaknesses.
        ﬁrst audits performed by local         and the Supplemental                    Speciﬁc emphasis is on recommen­
        audit ﬁrms. FAS audit reports for      Semiannual Headcount                    dations resulting from legislatively
        Madagascar, Cape Verde, Honduras,      Report Submitted to                     required audits, including the
        and Georgia were completed during                                              FISMA audit.
                                               the Office of Personnel
        this reporting period. MCC must
                                               Management                              The FISMA audit requirements are
        work with the Accountable Entities
                                                                                       designed to identify weaknesses that
        to resolve the audit ﬁndings.          OIG oversaw a nonfederal account        must be corrected to protect MCC’s
                                               ﬁrm’s review of “Agreed Upon            information technology and system
                                               Procedures of MCC’s Retirement,         assets.
                                               Health Beneﬁts, and Life Insurance
                                               Withholdings/Contributions and          Follow-up efforts have been focused
                                               the Supplemental Semiannual             on the FISMA audit of the previous
                                               Headcount Report” submitted by          period, with much work directed at




4       SEMIANNUAL REPORT TO THE CONGRESS
    4
resolution of outstanding actions.
Ongoing collaboration is essential
to the integrity of the audit process
and has tangible beneﬁts for MCC
and OIG. During this period, the
collective effort resulted in ﬁnal
action on seven recommendations
and reﬂects considerable work
addressing information technology
security agencywide.
Signiﬁcant work was conducted
to follow up on recommendations
made in “Risk Assessment of MCA
Cape Verde’s Financial Operations.”
However, MCC was unable to reach
management decision on recommen­
dations concerning management of
cash advances to and by Compact
recipients and secondary recipients.
OIG requested MCC’s action on
report recommendations after three
                                     2
months and again after four months.
OIG continues to work with MCC
on these recommendations from this
audit.




2. OIG letter to MCC Chief Executive Ofﬁcer,Ambassador John J. Danilovich, dated March 2, 2007.




                                                                                                  SEMIANNUAL REPORT TO THE CONGRESS   5
                                                                                   National Export Strategy report
                                                                                   does not reﬂect MCC’s planned
                                                                                   TCB accomplishments but reports
     Strategic Goal 2:                                                             on MCC’s current TCB activities
     Promote economy, efﬁciency, and                                               from ﬁscal year 2005. Finally, MCC
     effectiveness, and assess program results.                                    does not have a small-business
                                                                                   trade matchmaking program but
                                                                                   encourages the participation of
                                                                                   small businesses in procurement
                                                                                   ventures that will enable the small


O         IG directs efforts toward
          evaluating MCC’s response
          to management challenges
and providing recommendations
for addressing vulnerabilities. The
                                       poverty through investments in
                                       areas such as agriculture, education,
                                       private-sector development,
                                       and capacity building, providing
                                       monetary assistance through
                                                                                   businesses to compete with larger
                                                                                   ﬁrms both in the United States and
                                                                                   overseas.
                                                                                   (Survey Report No. M-000-07-001-S)
challenges relate to human capital,    Compact and threshold agreements
application of laws and regulations,   to eligible countries that have well-
and development of effective           designed programs. During 2005,             Audit of the Millennium
management-oversight methodolo­        MCC reported in the TCB database            Challenge Corporation’s
gies and programs.                     $368.9 million in funding for TCB-          Due-Diligence Review
                                       related activities for Madagascar,          Process Leading to Compact
                                       Honduras, and Nicaragua. The                Awards
SIGNIFICANT                            activities were related primarily
                                       to infrastructure and agriculture           OIG audited MCC’s due-diligence
OIG WORK                                                                           review process leading to Compact
                                       projects.
                                                                                   awards to determine the methodol­
Survey of MCC’s Trade                  OIG conducted the survey to                 ogy that MCC used in evaluating
Capacity Building                      determine whether MCC provided              country proposals for funding
Programs for Supporting                guidance to eligible countries              and whether MCC evaluated the
Implementation of Free Trade           on TCB programs; whether the                proposals in compliance with its
Agreements                             programs supported implementa­              policies and procedures.
                                       tion of free trade agreements with
OIG surveyed MCC Trade                 its Compact countries; whether              OIG found that the due-diligence
Capacity Building (TCB) programs       the 2006 National Export Strategy           process was effective. MCC
in response to a request by three      reﬂected MCC’s current and                  assessed country proposals in
members of the House Small             planned TCB accomplishments; and            compliance with its policies and
Business Committee. TCB                the status of MCC’s small-business          procedures with one exception.
programs assist developing             trade matchmaking efforts.                  Speciﬁcally, MCC did not provide
countries by building trade                                                        timely information on a proposed
competitiveness, improving             OIG concluded that MCC does                 project in one country for the
standards for traded goods, and        not have a speciﬁc, identiﬁable             country’s analysis and comment
improving customs procedures.          TCB program and therefore                   before Compact negotiation. In
TCB activities are categorized as      did not provide guidance to                 another country, a sustainability
physical-infrastructure development,   eligible countries on trade-related         gap in the proposal was identiﬁed
ﬁnancial-sector development and        activities. Furthermore, MCC’s              during the due-diligence process,
good governance, trade-related         programs do not directly support            and MCC worked to develop a
agriculture, and business services     free trade agreements, although             solution for helping ensure the
and training. MCC’s mission            the countries’ proposed programs            success of its investment. In
focuses on promoting sustainable       may complement established trade            addition, the due-diligence process
economic growth that reduces           agreements. In addition, the 2006           was aided in one country by the




                                                                               SEMIANNUAL REPORT TO THE CONGRESS         7
                                                                                                              Management of Conditions
                                                                                                              Precedent3 in MCC Compact
                                                                                                              Agreements
                                                                                                              During this reporting period, OIG
                                                                                                              conducted ﬁeldwork in Cape Verde,
                                                                                                              Georgia, Honduras, and Nicaragua
                                                                                                              in March 2007 in support of this
                                                                                                              audit. The audit is designed to
                                                                                                              determine if MCC ensured that all
                                                                                                              required conditions were met before
                                                                                                              Compact agreements went into
                                                                                                              effect or disbursements were made
                                                                                                              to Compact countries. It also will
                                                                                                              address the thoroughness of MCC’s
                                                                                                              review of required documents to
                                                                                                              ensure that the Compact countries
                                                                                                              have met all the required conditions.

            Photograph of an OIG auditor with irrigation specialists at the proposed irrigation
            project site. The Government of Armenia provided specialists in irrigation with
            extensive experience to help develop the project proposals.



        country counterparts’ expertise                    OIG recommended that MCC
        and knowledge of the proposed                      develop and issue guidance to
        projects. Their use assisted in the                staff for establishing time frames
        timely and efﬁcient execution of the               for receipt of consultant reports
        due-diligence process.                             and for providing such reports to
                                                           prospective countries in sufﬁcient
        OIG identiﬁed two issues that                      time for Compact negotiation.
        warrant MCC management’s
        consideration: (1) MCC’s due-                      Management decision was reached
        diligence budgeting process; and                   on the recommendation.
        (2) the English language capacity
                                                           (Audit Report No. M-000-07-001-P)
        of ofﬁcials reviewing MCC-related
        documents.




        3. Conditions precedent is a legal term coined by MCC that certain conditions, a process, or performance must take place before the Compact becomes
           a binding agreement and before MCC is obligated to make disbursements to the Compact country.




8        SEMIANNUAL REPORT TO THE CONGRESS
    8
                                                                                 local government, implementing
                                                                                 agencies, audit ﬁrm staff, foreign
                                                                                 government ofﬁcials, and Supreme
     Strategic Goal 3:                                                           Audit Institute members.
     Preserve and protect program and employee
     integrity.




O         IG employs proactive
          strategies to prevent
          fraud. For example,
fraud awareness training given to
employees, contractors, grantees,
                                       and protection of resources and
                                       consists of brieﬁngs and a manual
                                       that highlights potential contracting
                                       irregularities. OIG plans brieﬁngs
                                       at MCC headquarters as needed and
and others alerts them to fraudulent   with MCA entities of host countries
practices and schemes and advises      and other interested parties.
them on how to report fraud.           During this reporting period,
OIG’s fraud-awareness program          OIG conducted fraud-awareness
focuses on prevention of fraud         brieﬁngs in Armenia and Mali for



                               FRAUD AWARENESS BRIEFINGS WORLDWIDE
                                       AS OF MARCH 31, 2007

  Month              Location            Sessions        Attendees                 Professional Afﬁliation

    OCT                                           Nothing to Report


    NOV         Yerevan, Armenia              1                40              USAID and MCA Personnel
                                                                               MCA Personnel
                                                                               Local Accounting Firms
                                                                               Ministry of Finance representatives


    DEC                                            Nothing to Report


    JAN         Bamako, Mali                  1                31              MCC, USAID, and MCA Personnel
                                                                               Local Accounting Firms
                                                                               Ministry of Finance representatives


    FEB                                            Nothing to Report



    MAR                                            Nothing to Report


                       TOTAL                  2                71





                                                                           SEMIANNUAL REPORT TO THE CONGRESS          9
               A

               P

               P

  REPORTING    E
REQUIREMENTS   N
               D
               I
               C 

               E 

               S 


                     11
                        FINANCIAL AUDIT REPORTS ISSUED
                        October 1, 2006 through March 31, 2007

     Report       Date of                                                                     Amount of       Type of
     Number       Report                               Report Title                            Findings       Findings

 M-000-07-001-F   11/14/06   Audit of the MCC’s Due Diligence Review Process Leading to
                             Compact Awards

 M-000-07-002-F   01/05/07   Agreed Upon Procedures Performed on the MCC’s Retirement,
                             Health Benefits, and Life Insurance Withholdings/Contributions
                             and the Supplemental Semiannual Headcount Report Submitted
                             to the Office of Personnel Management for the period ending
                             June 10, 2006

 M-000-07-003-F   01/11/07   Risk Assessment of MCC’s Vanuatu’s Financial Operations




                                                                                              QC--Questioned Costs

                                                                                              UN--Unsupported Costs

                                                                                              Note: UN is part of QC





Appendix A                                                                 SEMIANNUAL REPORT TO THE CONGRESS             13
                               PERFORMANCE AUDIT REPORTS ISSUED

                                 October 1, 2006 through March 31, 2007


        Report             Date of                                                             Amount of   Type of
        Number             Report                            Report Title                       Findings   Findings

     M-000-07-001-S       12/01/06   Survey of the MCC’s Trade Capacity Building Programs to
                                     Support Implementation of Free Trade

     M-000-07-001-P       03/02/07   Audit of the MCC’s Due Diligence Review Process Leading
                                     to Compact Awards




     QC--Questioned Costs

     UN--Unsupported Costs

     Note: UN is part of QC





14      SEMIANNUAL REPORT TO THE CONGRESS                                                                   Appendix A
                  MISCELLANEOUS AUDIT REPORTS ISSUED

                     October 1, 2006 through March 31, 2007


     Report       Date of                                                               Amount of        Type of
     Number       Report                           Report Title                          Findings        Findings

 M-000-07-001-N   12/21/06   Audit of the Fund Accountability Statement of the MCC       $6,617             QC
                             Resources Managed by MCA-Madagascar Under the
                             Compact Agreement Dated April 18, 2005 Between MCC                             UN
                             and the Government of the Republic of Madagascar for
                             the Period from July 27, 2005 to June 30, 2006

 M-000-07-002-N   01/11/07   Audit of the Fund Accountability Statement of the MCC       $4,366             QC
                             Resources Managed by MCA-Cape Verde Under the
                             Compact Agreement dated July 4, 2005, between MCC and                          UN
                             the Government of the Republic of Cape Verde for the
                             period from October 17, 2005 to June 30, 2006

 M-000-07-003-N   02/07/07   Independent Auditor’s Report on the Financial Audit of
                             the MCC Resources Managed by Millennium Account-
                             Honduras (MCA-Honduras), Under the Compact
                             Agreement Between the MCC and MCA-Honduras from
                             February 22, 2006 - June 30, 2006

 M-000-07-004-N   02/27/07   Audit of the Fund Accountability Statement of the MCC
                             Resources Managed by Millennium Challenge - Georgia
                             (MCA-Georgia), Under the Compact Agreement Dated
                             September 12, 2005, Between the MCC and the
                             Government of Georgia for the Period from April 7, 2006,
                             to June 30, 2006




                                                                                          QC--Questioned Costs

                                                                                          UN--Unsupported Costs

                                                                                          Note: UN is part of QC





Appendix A                                                              SEMIANNUAL REPORT TO THE CONGRESS           15
                              AUDIT REPORTS OVER SIX MONTHS OLD

                                WITH NO MANAGEMENT DECISION 

                                       As of March 31, 2007

                                                                                                                                      Desired
                                                                                                                 Current              Decision
         Report                                                                                 Date of      Recommendation            Target
         Number                                     Report Title                                Report           Status                 Date

      M-000-06-001-C       Audit of the Millennium Challenge Corporation’s Financial            12/06/05             3.1*               04/07
                           Statements, Internal Controls, and Compliance for the
                           Period Ending September 30, 2005, and the Nine-month
                           period Ending September 30, 2004

      M-000-06-004-F       Risk Assessment of Millennium Challenge Account Cape                 09/26/06           1 and 3              04/07
                           Verde’s Financial Operations




        * The management decision previously recorded for recommendation 3.1,“Audit of the MCC’s Financial Statements, Internal Controls,
          and Compliance for the Period Ending September 30, 2005, and the nine-month period ending September 20, 2004,” Report
          No. M-000-06-001-C, December 6, 2005, was rescinded by MCC on March 8, 2007. MCC has determined that the 2005 management
          decision does not reﬂect their current position. The management decision was rescinded and accordingly, the OIG records reﬂect that
          Management Decision is pending.




16
 16      SEMIANNUAL REPORT TO THE CONGRESS                                                                                              Appendix B
                      SIGNIFICANT AUDIT RECOMMENDATIONS

                       DESCRIBED IN PREVIOUS SEMIANNUAL

                         REPORTS WITHOUT FINAL ACTION

                                As of March 31, 2007

                                                                                                                    Final Action
     Report                                                                  Rec.         Issue     Management         Target
     Number                         Subject of Report                        No.          Date      Decision Date       Date

 M-000-05-003-P     Audit of the Millennium Challenge Corporation’s              8       06/20/05     06/20/05         04/07
                    Compliance with Provisions of the Federal
                    Information Security Management Act of 2002
 M-000-06-001-C     Audit of the Millennium Challenge Corporation’s              3.1     12/06/05         *            04/07
                    Financial Statements, Internal Controls, and
                                                                                 5.2                  12/06/05         04/07
                    Compliance for the Period Ending September
                    30, 2005 and the Nine Month Period Ending
                    September 30, 2004

 M-000-06-003-F     Risk Assessment of Millennium Challenge                      1       03/28/06     03/28/06         08/07
                    Corporation’s MCA Madagascar Financial
                                                                                 2                    03/28/06         08/07
                    Operations

 M-000-06-001-S     Review of the Millennium Challenge Corporation’s             1.2     05/16/06     05/16/06         05/07
                    Progress in Achieving Its Planned Organizational
                                                                                 2                    05/16/06         05/07
                    Structure and Beginning Its Assistance Programs
                                                                                 3                    05/16/06         05/07
                                                                                 4                    05/16/06         05/07

 M-519-06-002-P     Audit of the General and Application Controls                1       07/07/06     07/07/06         07/07
                    of hte Government of El Salvador’s Integrated
                                                                                 2                    07/07/06         07/07
                    Financial Administration System
 M-000-06-004-F     Risk Assessment of Millennium Challenge Account              1       09/26/06         *            04/07
                    Cape Verde’s Financial Operations
                                                                                 2                    09/26/06         09/07
                                                                                 3                        *            04/07
 M-000-06-002-P     Audit of the Millennium Challenge Corporation’s              1       09/28/06     09/28/06         09/07
                    Management of Section 609(g) Funds
                                                                                 2                    09/28/06         09/07
                                                                                 3                    09/28/06         09/07
                                                                                 4                    09/28/06         09/07
 M-000-06-003-P     Audit of the MCC’s Compliance with the                       1       09/29/06     09/29/06         09/07
                    Provisions of the Federal Information Security
                    Management Act of 2002 for Fiscal Year 2006




       * MCC has not reached management decision on this audit recommendation.




Appendix C                                                                             SEMIANNUAL REPORT TO THE CONGRESS           17
                                 REPORTS ISSUED WITH QUESTIONED

                                     AND UNSUPPORTED COSTS

                                  October 1, 2006 through March 31, 2007

                                                                                 Number
                                                                                 of Audit           Questioned               Unsupported
                                   Reports                                       Reports              Costs                     Costs*

      A. For which no management decision had been made as of                        0                    $0                       $0
         October 1, 2006

      B. Add: Reports issued October 1, 2006 through March 31,                       2                 $10,983                   $7,083
         2007

          Subtotal                                                                   2                 $10,983                   $7,083

      C. Less: Reports with a management decision made October                       0                    $0                       $0
         1, 2006 through March 31, 2007

          i.   Value of Recommendations Disallowed by Agency                         0                    $0                       $0
               Ofﬁcials

          ii. Value of Recommendations Allowed by Agency Ofﬁcials                    0                    $0                       $0

      D. For which no management decision had been made as of                        0                    $0                       $0
         March 31, 2007



      * Unsupported Costs are included in Questioned Costs, but are provided as additional information as required by the Inspector General
        Act Amendments of 1988 (P.L. 100-504).




18
 18     SEMIANNUAL REPORT TO THE CONGRESS                                                                                               Appendix D
             REPORTS ISSUED WITH RECOMMENDATIONS

                THAT FUNDS BE PUT TO BETTER USE

                October 1, 2006 through March 31, 2007

                                                        Number
                                                        of Audit
                      Reports                           Reports        Dollar Value




                            NOTHING TO REPORT





Appendix E                                       SEMIANNUAL REPORT TO THE CONGRESS    19
                                Inspector General

                 HOTLINE
   OIG’s Hotline makes it easy to report allegations of fraud,
   waste, abuse, mismanagement or misconduct in programs
   and operations of the USAID, IAF, ADF, and MCC.
   Employees, contractors, program participants and the
   general public may report allegations directly by e-mail,
   telephone, or mail to:

   Phone                 	1-202-712-1023
                          1-800-230-6539


   E-mail 	 ig.hotline@usaid.gov


   Mail                  	USAID OIG HOTLINE
                          P.O. Box 657

                          Washington, DC 20044-0657



U.S. Agency for International Development
1300 Pennsylvania Avenue, N.W.
Washington, D.C. 20523
www.usaid.gov
               U.S.Agency for International Development 

                    Ofﬁce of Inspector General 

                               for the

                Millennium Challenge Corporation

                    1300 Pennsylvania Avenue, N.W.

                             Room 6.6D 

                       Washington, DC 20523


                         www.usaid.gov/oig




The Semiannual Report to the Congress is available on the internet at 

            www.usaid.gov/oig/public/semiann/mcc1.htm

